<html>
<title> - WATER RESOURCES CONTAMINATION AND ENVIRONMENTAL CLEANUP IN THE HUDSON VALLEY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                WATER RESOURCES CONTAMINATION AND ENVIRONMENTAL 
                        CLEANUP IN THE HUDSON VALLEY
=======================================================================

                               (110-114)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                   APRIL 11, 2008 (EAST FISHKILL, NY)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                   U.S. GOVERNMENT PRINTING OFFICE
42-186 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)



            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               CONNIE MACK, Florida
STEVE KAGEN, Wisconsin               JOHN R. `RANDY' KUHL, Jr., New 
JERRY MCNERNEY, California, Vice     York
Chair                                CHARLES W. BOUSTANY, Jr., 
ELEANOR HOLMES NORTON, District of   Louisiana
Columbia                             JEAN SCHMIDT, Ohio
BOB FILNER, California               CANDICE S. MILLER, Michigan
ELLEN O. TAUSCHER, California        THELMA D. DRAKE, Virginia
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A ARCURI, New York             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Carlson, Dr. G. Anders, Director, Division of Environmental 
  Health Investigation, New York State Department of Health, 
  Troy, New York.................................................    16
Degnan, Hon. John, Former Mayor, Village of Brewster.............     5
Hall, Debra, Hopewell Junction Citizens for Clean Water..........     5
Hickman, John, East Fishkill Town Supervisor.....................     5
Pavlou, George, Director, Emergency and Remedial Response 
  Division, U.S. Environmental Protection Agency, Region 2, New 
  York, New York.................................................    16
Washington, Val, Deputy Commissioner for Remediation and 
  Materials Management, New York State Department of 
  Environmental Conservation, Albany, New York...................    16

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Hinchey, Hon. Maurice D., of New York............................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Carlson, G. Anders...............................................    36
Degnan, Hon. John................................................    42
Hall, Debra......................................................    45
Hickman, John....................................................    50
Pavlou, George...................................................    52
Washington, Val..................................................    63

[GRAPHIC] [TIFF OMITTED] 42186.001

[GRAPHIC] [TIFF OMITTED] 42186.002

[GRAPHIC] [TIFF OMITTED] 42186.003

[GRAPHIC] [TIFF OMITTED] 42186.004

[GRAPHIC] [TIFF OMITTED] 42186.005

[GRAPHIC] [TIFF OMITTED] 42186.006

[GRAPHIC] [TIFF OMITTED] 42186.007

[GRAPHIC] [TIFF OMITTED] 42186.008

[GRAPHIC] [TIFF OMITTED] 42186.009

[GRAPHIC] [TIFF OMITTED] 42186.010

[GRAPHIC] [TIFF OMITTED] 42186.011

[GRAPHIC] [TIFF OMITTED] 42186.012



 WATER RESOURCES CONTAMINATION AND ENVIRONMENTAL CLEANUP IN THE HUDSON 
                                 VALLEY

                              ----------                              


                         Friday, April 11, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                 East Fishkill, NY.
    The Subcommittee met, pursuant to call, at 10:15 a.m., in 
East Fishkill Town Hall, East Fishkill, New York, Hon. Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. Good morning.
    I call this hearing of the Subcommittee on Water Resources 
and Environment to order.
    Today, we will receive testimony in regards to water 
resources contamination and environmental cleanup in the Hudson 
Valley region.
    The Comprehensive Environmental Response, Compensation and 
Liability Act of 1980, or Superfund, provides broad Federal 
authority to respond to releases or threatened releases of 
hazardous substances that may endanger public health or the 
environment.
    Former Senator Robert T. Safford, Republican from Vermont 
and at one time the Chairman of the Senate Environment and 
Public Works Committee, described the need for Superfund 
legislation in the June 1981 EPA Journal. He wrote:
    "Together with the other Members of the Senate Committee on 
Environment and Public Works, I worked on this legislation for 
nearly three years. ...Eighty percent of American people wanted 
some legislation. ...The Surgeon General of the United States 
considers toxic chemicals to pose a major threat to health in 
the United States or the decade of the 1980s. Modern chemical 
technology has produced miracles that have greatly improved 
this nation's standard of living. But the increased generation 
of hazardous substances associated with these new products has 
proved to be a serious threat to our nation's public health and 
environment."
    The Superfund was enacted by Congress on December 11, 1980. 
Since March 1980, TCE and TCA chemicals have been detected in a 
drinking water well located on the Hopewell Precision property, 
which we will discuss today. Until 1983, operators disposed of 
dry-cleaning wastes in a well located adjacent to the 
establishment at the Brewster Well Field site, which we will 
also discuss today. The Superfund law was timely in the Hudson 
Valley, just as it was across the nation.
    A Native American proverb states: "We do not inherit the 
earth from our ancestors, we borrow it from our children."
    This is an important idea that we should all keep in mind 
as we listen to today's testimony. While we are here to discuss 
the decontamination of sites that, through recent history, have 
harmed our land, soil and air, we must not simply focus on the 
Superfund cleanup program.
    We must also consider and have concern for the human health 
impacts that these sites have had on our communities, and the 
problems that these sites can bring about in the future if not 
properly handled in a timely manner.
    I would like to thank Congressman Hall for bringing to the 
Subcommittee's attention the need for such a hearing. The 
Congressman has a long history of environmental activism, 
fighting for safe energy and environmental protection of the 
Hudson Valley long before he took a seat on our Committee.
    He has brought his passion for these issues to us, using 
his expertise to raise awareness on the Water Resources and 
Environment Subcommittee and throughout the halls of Congress.
    I would also like to welcome our witnesses here today. I 
look forward to hearing your testimony on the Federal and State 
agency roles in addressing public health risks posed by 
contaminated sites in the Hudson Valley, as well as the 
adequacy of existing health standards to address these 
concerns.
    Before I yield to my colleague, the Ranking Member of the 
Subcommittee on Water Resources and Environment, I ask for 
unanimous consent to allow Members five additional legislative 
days to submit statements for the record on this hearing.
    Ranking Member Boozman.
    Mr. Boozman. My name is John Boozman. I represent the Third 
District from Arkansas, and the way that the hills and the 
things around here are very, very similar to where I come from. 
It is a beautiful part of the country.
    As a newly appointed Ranking Member of this Subcommittee, I 
am delighted to be here to learn firsthand about the important 
pollution issues here in the Hudson Valley.
    An important objective of the EPA Superfund is to protect 
human health from the risks of hazardous substances like TCE. 
We must be sure that the dollars we spend for the Superfund 
program do indeed reduce the public health risks. EPA and the 
State of New York have clearly done a great deal here in the 
Hudson Valley to try to reduce human exposure to dangerous 
pollutants.
    The question remains; what are the next steps that need to 
be taken? We passed a lot of laws in Washington establishing 
new funding programs that we hope are doing some good for 
people. I think it is important for Members of Congress to get 
out of Washington and out of our own Congressional districts to 
see other areas of the country and to listen to citizens tell 
us what is working and what is not, so I have come here to 
listen, and I look forward to hearing from our legislators and 
share with us their real world experiences with the Superfund 
program.
    I want to thank Representative Hall for bringing this issue 
to our attention and Chairwoman Johnson for holding this 
hearing, and I look forward to hearing from our witnesses. 
Thank you Madam Chair.
    Ms. Johnson. Thank you, Mr. Boozman. I now recognize 
Congressman Hall.
    Mr. Hall of New York. Thank you, Madam Chair. I would like 
to thank Chairwoman Johnson and Ranking Member Boozman for 
traveling here, when they could have spent last night in their 
own beds in Texas and Arkansas respectively and in their home 
districts today, so we can hold this hearing and discuss the 
impact of the pollution from Superfund sites is having on 
communities and on the health of our citizens in the Hudson 
Valley. I would also like to thank our esteemed panel of 
witnesses for appearing here to share their views.
    I would like also, at this time, if I may, Madam Chair, to 
request that the statement by Congressman Hinchey, who 
represents New York's 22nd Congressional District, be entered 
into the record. There is also a letter from Dutchess County 
Legislator Marge Horton that I would ask to be introduced into 
the record. I will also acknowledge some local officials and 
staff: Taylor Palmer from the Representative Nita Lowey's 
staff; Mike Russo, from Representative Kirsten Gillibrand's 
staff; Bill McCabe, Dutchess County Legislator; Sandra 
Goldberg, Dutchess County Legislator; Steve Neuhaus, Supervisor 
of the Town of Chester; and, I know he is not on the witness 
list, but also Region Three director, Will Chamberlain. I would 
like to recognize those individuals, in addition to those who 
were officially testifying today.
    I know there are a few more people who would want to be in 
this hearing and could not attend. It is not every day that 
Congress steps out of the Beltway, as Mr. Boozman said, but it 
is important that we do undertake a close and personal 
investigation of the challenges that we face.
    The Hudson Valley has been blessed with an abundance of 
water resources, sometimes in recent years too much water, and 
the commitment of local residents to protecting these resources 
is strong. In the 19th congressional districts, we are home to 
no less than five active sites on the Superfund's National 
Priority List, or NPL. You will hear the initials NPL later. 
That's what it means.
    The sites on that list include Carroll and Dubies Sewage 
Disposal in Port Jervis, and Deer Park, the Nepera Chemical 
site in Hamptonburgh, Brewster Well Field in Brewster, and 
right here where we hold this hearing, Shenandoah Road in East 
Fishkill and the Hopewell Precision Site in Hopewell Junction.
    This list is reserved for sites throughout the country that 
are far and away the most hazardous, and in fact, the worst of 
the worst. They create a public health risk and an economic 
burden that can last for years and generations. We need to 
constantly examine what can be done to accelerate their 
cleanup.
    It is my hope that today's examination of these sites will 
provide specific insight to take back to Washington and apply 
to the Superfund program as a whole_because what is happening 
here is directly related to the Superfund program on a national 
basis. The same pollutants, the same funding challenges, the 
same desire to accelerate cleanup are in evidence throughout 
the country.
    One of the most common threads among Superfund sites is the 
pollutant that is the main culprit right here in Hopewell 
Junction: TCE, or trichloroethylene. At the Hopewell Precision 
site, it was used for degreasing, and then recklessly dumped 
into the ground, contaminating wells, creating vapor intrusion 
and leaving a mile and a half long underground plume from the 
site.
    Contact with that chemical can have a number of serious 
health consequences ranging from dizziness and headaches to 
kidney and liver damage, and likely even to cancer.
    The citizens of the Hopewell area are not alone in having 
to deal with TCE. Since 2003, the Agency for Toxic Substances 
and Disease Registry indicated that TCE was present at 852 of 
the 1,430 or almost 60 percent of the National Priority List 
sites of TCE as one of the main contaminants. Despite this 
widespread prevalence, the EPA, our Environmental Protection 
Agency, has yet to move forward with a protective standard for 
TCE that would make it easier for communities to cope with the 
health threats of this pollutant.
    I share the view of the National Academy of Sciences that 
there is ample evidence to move forward, and have joined 
Congressman Hinchey in introducing the TCE Reduction Act. This 
legislation would spur EPA action on the subject. I hope the 
record we establish here will forward that cause.
    I am also looking forward to examining the impact of EPA's 
decreasing investment in Superfund and the growing reliance on 
US Treasury revenues on cleanup progress. Although the original 
principle that the polluter pays is still present in Superfund, 
the expiration of the taxes on polluting industries in 1995 has 
limited resources and placed greater strain on the program.
    Since 2004, the program for cleanup has relied almost 
exclusively on you, the taxpayer. Those funds do not come from 
polluter tax dollars. They come from your pocket. This is not 
the intent of the Superfund law, nor the way it was written.
    Faced with an increasingly tight budgetary climate, the 
Superfund program has begun to fall significantly behind needed 
funding levels on a national basis. Since fiscal year '02, 
funding has been consistently beneath where it should be, about 
$400 million below the annual need.
    Similarly, reviews from within EPA have raised concern that 
the agency is not doing as well as it could in recovering costs 
from responsible parties. When resources are not available, 
cleanup suffers and the communities that are stuck with these 
toxic sites continue to be harmed.
    We, as a government, have to do better, and I am hopeful 
that today's hearing will provide us with a deeper 
understanding of how we can move in that direction, both in the 
19th District and around the country. I thank you.
    Ms. Johnson. Thank you. Without objection, we will enter 
into the record those documents you recommended.
    We will begin our testimony with the first panel. What we 
will do is hear from the three of you before questions begin, 
and you will comment in the order in which you are listed, Ms. 
Hall, Mr. Hickman and Mr. Degnan. We will now hear Ms. Hall.

 TESTIMONY OF DEBRA HALL, HOPEWELL JUNCTION CITIZENS FOR CLEAN 
  WATER; JOHN HICKMAN, EAST FISHKILL TOWN SUPERVISOR; AND THE 
      HON. JOHN DEGNAN, FORMER MAYOR, VILLAGE OF BREWSTER

    Ms. Hall. My name is Debra Hall. In the past seven years, 
my husband and I have lived above the plume of chlorinated 
solvent contamination emanating from the Hopewell Precision 
plant here in Hopewell Junction, New York. I would like to 
thank Congressman Hall, Chairwoman Eddie Bernice Johnson of New 
York and Ranking Member Boozman from Arkansas for coming to 
hear directly from people whose health and property are 
impacted by toxic contamination.
    I have five messages for you today. I would like to think 
they are simple but the EPA must promulgate a protective 
standard for trichloroethylane, one of the contaminants that 
polluted my private well as well as the air in my home. Five 
parts per billion is no longer acceptable. We had hoped that 
the EPA would finalize its 2001 draft Human Health Risk 
Assessment, which found that TCE was five to 65 times as toxic 
as previously believed.
    In 2002, the EPA Science Advisory Board conducted a 
generally positive peer review, but instead of finalizing the 
risk assessment, EPA bent to the wishes of federal polluting 
agencies and sent the question of the National Academy of 
Sciences to the National Academy of Sciences for a rereview.
    The academy concluded that the evidence on carcinogenic 
risks and other health hazards from exposure to 
trichloroethylane has strengthened since 2001, and the 
Committee recommends that federal agencies finalize their risk 
assessment with currently available data so that risk 
management decisions can be made expeditiously.
    Now we are told that there is so much new information about 
TCE, it would be best to do a completely new study.
    Stakeholders agree that more is being learned all the time, 
but we also know that the standard needs to be lowered. Our 
health and lives depend on it. A completely good report is gone 
into the garbage. Instead of getting implemented, instead of 
our families being protected by a more protective standard, we 
will now have to wait years for another study. This does not 
make any sense. It is like building a four-lane bridge but 
never using it. Instead it gets demolished because a six-lane 
bridge is now needed. It just does not make any sense.
    Furthermore, EPA needs to finalize its 2002 Vapor Intrusion 
Guidance using ideas from impacted communities as well as other 
experts. We believe that vapor mitigation units should be 
installed wherever volatile organic compounds are detected 
above outdoor air levels. It would be protective and cheaper in 
the long run since testing and mitigation usually costs about 
the same. This is what was done at our site, and we feel it is 
working out very well. Every home must be retested to make sure 
the system is working.
    I was disappointed to learn recently that there is no plan 
to complete the guidance, despite ongoing technical work and 
the constructive input from impacted communities.
    The EPA should organize a genuine national forum that 
brings vapor intrusion stakeholders from all across the country 
together with experts and government officials.
    Last month I presented to a roomful of officials and 
consultants with four of the stakeholders. We all provided lots 
of information and even taught the audience a thing or two. EPA 
is organizing another forum this fall, but it will again be a 
handful of community stakeholders with hundreds of paid people 
in suits, unless EPA provides travel assistance to enable 
people like me from around--from all over the country to 
attend.
    The EPA and others should learn what is important to the 
people who are affected, concerns are very different when you 
walk in our shoes. Congress needs to reinstate the Superfund 
tax. In the near future, hopefully, we are going to find out 
what remedies will be used to clean the Hopewell Precision 
site, but we aren't sure EPA will have the money to implement 
them, and if we get the money here, it will be at the expense 
of some other contaminated community.
    It has been five long years already since this began for 
us. Without enough money, our community will be indefinitely 
stigmatized. We want action to help us climb out of this hole. 
We need water immediately. Impacted homeowners, not polluters, 
deserve property tax relief. Instead of taxing Hopewell 
Precision, the government is allowing the company to laugh all 
the way to the bank. It was allowed to lower its property 
assessment by almost 80 percent because the property is 
contaminated because of themselves. The law is different for 
homeowners. Our assessments are close to those of homes without 
contamination. Hopewell Precision's large building and five 
acres are being assessed the same as some homes with one acre.
    Please understand that I am not complaining about the work 
that EPA did here at the Hopewell Precision site. In fact, we 
are extremely pleased with Angela Carpenter, Lorenzo Thantu and 
Don Graham's work. They are reliable, accessible and 
personable. It is the policies, procedures and of course the 
money that concern us. Thank you for listening. I look forward 
to hearing how you will take action to address the issues I 
have raised.
    Ms. Johnson. Thank you very much, Ms. Hall. I failed to say 
earlier that we would like you to limit your testimony to five 
minutes, and we will put your entire statement into the record.
    Ms. Hall. Thank you.
    Ms. Johnson. Mr. John Hickman.
    Mr. Hickman. Thank you very much. This is short testimony. 
Good morning, my name is John Hickman. I am the Supervisor of 
the Town of East Fishkill. I would like to thank the 
Congressional Subcommittee on Water Resources and the 
Environment for meeting here in the Town of East Fishkill.
    The Town of East Fishkill has two Superfund sites, one 
created by a contractor and another created by a business who 
disposed of cleaning solvents carelessly, possibly criminally, 
seriously contaminating our groundwater. These activities 
continued unnoticed for decades resulting in widespread 
contamination by TCE, a silent, slow-moving, slow-acting poison 
that affects unsuspecting people through groundwater 
contamination and vapor intrusion. To those living in the 
affected areas, I can only say that people--to those living in 
the affected areas, I can only say that people should not have 
to live such a nightmare. Indeed, the stories that I have heard 
firsthand of the health and developmental problems of families 
living in the Ryan Drive Superfund site are truly, truly 
heartbreaking, and my heart goes out to those so affected.
    I too would like to commend the EPA on their response. In 
my capacity, dealing with Lorenzo Thantu and Damien Dudah of 
the EPA on the respective sites, I have found that both treat 
our citizens with sensitivity and understanding. I would state 
that the most frustrating part of the process is the time that 
it takes in analyzing the contamination, providing temporary 
services, and designing and implementing a remediation plan. It 
is indeed a long and drawn-out process. I feel that we need 
stronger regulation and oversight, legislation and enforcement 
at a higher level, of individuals and businesses that use such 
chemicals so that we may prevent more Superfund sites from 
happening. The prevention of such situation is paramount, 
saving people the horrors of living in contaminated sites.
    In our case, sadly, when the damage has been done, we need 
help in protecting the health of our people and in the 
remediation of the contamination. The Town of East Fishkill 
does not have the resources to address such issues. I would 
like to thank the members of the local group, Citizens For 
Clean Water, for their efforts in bringing the Ryan Drive 
situation to our attention. I would like to thank the Members 
of this Subcommittee for being here today. I would like to 
thank Congressman John Hall and Maurice Hinchey for introducing 
legislation directing the EPA to set stricter regulations on 
TCE. We need your help in addressing an issue, not simply of 
contamination but of families suffering tragically from daily 
exposure to TCE. Thank you.
    Ms. Johnson. Thank you, Mr. Hickman. We will now have 
testimony from Mr. John Degnan, former Mayor of Brewster.
    Mr. Degnan. I would like to thank Congressman John Hall for 
inviting me here today and our host, Supervisor John Hickman, 
and the good people of the Town of East Fishkill. I would also 
like to thank Chairwoman Eddie Bernice Johnson and Ranking 
Member John Boozman and all the Members of the Committee on 
Transportation and Infrastructure for keeping eyes on the 
Hudson River Valley and our local challenges for water quality.
    Brewster is home to the Superfund site. In 1978, Brewster 
discovered VOCs in its municipal water supply. Investigations 
discovered a rogue drycleaner had used a drywell to dispose of 
his production waste for about 20 years. The drywell was 
immediately adjacent to the source of the village water supply. 
The site was placed on the National Priorities List of 
Superfund sites in December 1982. Shovels in the ground to 
ensure safe drinking water in Brewster. In 1984, the village, 
under a cooperative agreement with EPA, installed a full-scale 
air stripper, which is currently providing safe drinking water 
to the village residents. A groundwater management system was 
developed, installed and fully operational by April of 1987. 
Four extraction wells feed a packed column airstripper treating 
a volume of about 50 gallons of water per minute. The extracted 
treated water is discharged into the East Branch of the Croton 
River near the city watershed.
    In late 1991, approximately 160 tons of contaminated soil 
were removed from the source site. Final confirmation samples 
showed that the target cleanup goal of 4 milligrams per kilo 
for PCE in the unsaturated zone was accomplished and acceptable 
to health standards.
    In 2007, EPA modified its GMS by adding two extraction 
wells and a new airstripper at the source site. The new 
stripper continues to extract about 50 gallons per minute and 
discharges into the same water body. A sub-slab mitigation 
system was also installed at the source site.
    My observations: The Village of Brewster, in partnership 
with the EPA the DEC, the DEP and the Putnam County Board of 
Health, delivers safe drinking water to its residents. Quoting 
from the five-year review report prepared by the EPA in 2007 
"Groundwater monitoring results do not indicate that the mass 
reduction of PCE is occurring at the rate anticipated."
    The 1986 record of decision estimated ten years for 
remediation. Further, the anticipated duration of the pumping 
to reach maximum contaminated levels is not presently known. 
PCE levels at the source property have continued to exceed safe 
water drinking standards. Concentrations are generally lower 
and they are showing that the remedy is improving.
    EPA left the door open with their 2000 report. What 
enhancements should be considered to further remedy the 
conditions? What are the results of air monitoring in the 
source building? Soil gas samples suggest that residual source 
materials may remain underneath the building. Has the capture 
plume moved? Has EPA evaluated the performance of the modified 
GMS? Does EPA have an action plan?
    EPA Director of Emergency and Remedial Response Division, 
George Pavlou, closes his report in 2007 by suggesting that 
these questions need to be addressed prior to the transfer to 
the state.
    Documentation and communication: The EPA website is a good 
source for information. The background and case study are well-
documented. Two five-year reports from 2002 and 2007 are 
readily available to anyone who wishes to review the history.
    The EPA makes reference to correspondence shared with the 
planning board of the Town of Southeast. It is my 
recommendation that the correspondence generated by the EPA 
also be shared with the Village of Brewster.
    The closing comments: In my opinion, the EPA has earned an 
academic A for taking the lead in protecting the drinking water 
in Brewster; a grade of B on the 26-year time frame thus far. 
It took nine years to get to the source for remediation and 
contaminated soils. A grade of B plus for transparency and 
recommendations. I asked for a more proactive approach on the 
part of the EPA in sharing current information. This is the 
record and the history. From a local stakeholder, I pray that 
the EPA in collaboration with its partners earns excellent 
grades for the future. Anything else would be irresponsible and 
a danger to the health of Brewster's people.
    Thank you for the opportunity to address you today, and I 
look forward to our collective water quality success stories.
    Ms. Johnson. Thank you very much. We will now begin our 
first round of questions. Ms. Hall, you made several 
recommendations. How would you prioritize your recommendations?
    Ms. Hall. First and foremost, the Hopewell Precision site 
victims need to get water: clean water. We don't even know yet 
where it is going to come from, when into this five years. We 
have actually been contaminated since the '70s and '80s. The 
government unfortunately knew that this company since 1979 had 
dumped all these chemicals and a very--an investigation was 
done, but it was done very poorly, and the site was delisted in 
'94, saying everything was great.
    Unfortunately nobody ever told the residents that any 
investigation was done at all, and two years later, Hopewell 
Precision bought 48 55-gallon drums more of TCE. They used it, 
and there is no record of where they are, or what they did with 
the used TCE. Here it happened again. You know it that we want 
to have our water. We want to be able to be able to sell our 
homes. We want to be able to turn the faucet on and know that 
we are protected.
    It is very hard for people that don't have systems in their 
home because they don't have that 5 part per billion threshold, 
so they are not being protected, and there are at least 12 
homes like that that I know of, so that would be number one.
    Number two is they need to_the EPA needs to_lower the TCE 
standard. I mean this should have happened in 2002. We are 
already in 2008, six years later, and now they want to start a 
whole brand new--a whole brand new report. It doesn't make any 
sense. We have a report already. Let's use that. If you want to 
add onto it, we will add onto it, but why not use what was 
done, peer reviewed, all that money went into it, all that time 
went into it, and it is ridiculous not to use it.
    Of course the Superfund tax needs to be implemented again. 
I mean, to make the people pay for what companies have done is 
not right. It is just not right. I don't understand why the tax 
was taken away from these companies. Hopewell Precision has not 
paid a dime for any of this yet except to their attorneys. They 
have not paid one cent, yet the people have, you know, and it 
is just not fair, and residents should--our assessments on our 
homes, why is it that Hopewell Precision is allowed to lower 
their assessment by 80 percent simply because they are an 
industrial property. They polluted themselves and they are able 
to lower their assessment because they are polluting, yet the 
people that have the water and the air contamination, they are 
being told, ``well, you can't do that because you're 
residential, you are a whole different thing.'' We can lower it 
a little bit, but that's about it. But they lowered it by about 
80 percent. That's a lot, and a lot of us are paying top dollar 
on our assessments for the schools, for everything else and our 
homes are basically unsellable, and it is not fair, and of 
course stakeholders need to be more informed, need to be 
invited to these conventions that are being held twice a year 
about vapor intrusion and TCE, and we should be involved more, 
and we are not.
    Ms. Johnson. Thank you very much.
    Mr. Hickman, in your testimony, you stated that the most 
frustrating part of this process is the length of time it 
takes. In your view, what is the reason for this process 
dragging out, and how would you alleviate that?
    Mr. Hickman. I think it is well-recognized the government 
does work slowly. We all have experienced that. Again I commend 
the EPA. I don't know between the time of the analysis, and I 
really can't answer that. I think the EPA would be better 
suited to answer why this takes several, several years for 
remediation. I'd just like to say anything that the Town of 
East Fishkill could do, we would. We do have water sources not 
far from where we would be more than happy to step in and work 
with the EPA. I don't know. I couldn't answer what the holdup 
is. The EPA is very thorough and contamination of this manner 
is a very, very difficult thing to remediate. Possibly if they 
did it concurrently, remediation and short-term mitigation 
might be a help. I know you can analyze the problem, try to set 
up a remediation, but I think at the same time we could also 
set up mitigation--actually they have.
    The treatment systems have done just that, but I would 
suggest that possibly we look for more of a permanent 
mitigation while we look to remediate the problem, but it is 
very complicated, and we are talking chemicals that are not 
easily removed from the environment.
    Ms. Johnson. Thank you. Mr. Degnan, in your testimony you 
noted that the EPA's 2007 report found that the PCE is not 
being reduced at the rate anticipated. In your view, what next 
steps need to be taken?
    Mr. Degnan. In my view, we have to get much more serious 
with the source contaminations. It took us nine years to get to 
a point where we were remediating soils. As I stated in my 
testimony, the drinking water is safe in the Village of 
Brewster. There are two pack air column strippers in action 
right now and all were extracted from the municipal wells, it 
was treated.
    The second stripper is operated by the EPA and it is 
continuing the process of trying to remediate the soils. I am a 
big proponent of the cooperation between the EPA and the 
Massachusetts Department of Environmental Protection where both 
those agencies work together to come up with conformance-based 
systems to deal with self-certification of environmental 
systems, management systems for dry cleaners, photo shop 
printers and print shops.
    I believe that these conformance-based systems could be 
expanded into auto body shops, nail salons and any other type 
of business at the local level that is--has the potential to 
pollute our water systems.
    So I would ask that in addition to the good work that these 
agencies that oversee our water supply bring in enforcing 
regulatory compliance also offer tools for conformance-based 
systems where education, training and outreach is given to the 
local stakeholders to educate them as to what the impact of bad 
business can be when it comes to water pollution. Thank you.
    Ms. Johnson. Now, in your testimony, you indicated that the 
past and current water superintendents were not aware of the 
current status of the pollution. How do they communicate or do 
they communicate.
    Mr. Degnan. Up until today's testimony, I have not had the 
opportunity to meet local representatives from the EPA. I am 
proud of the work that I have done in public service in forming 
relationships with New York City's Department of Environmental 
Protection, New York State's Department of Environmental 
Conservation and the Putnam County Board of Health. I believe 
that it is the duty of the EPA to take a proactive position 
when it comes to communication that to have our superintendents 
of water not be aware of the actions that took place in 2007 to 
introduce an airstripper at the source tells me that there is a 
breakdown in communication.
    Again, I think the EPA has done a very good job on their 
website in providing us with the information that we need to 
stay current, but I would ask the communication be more 
proactive, and I know that the village board of trustees would 
welcome an opportunity to establish a relationship with local 
EPA representatives.
    Ms. Johnson. Thank you very much on that. Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. Have you tried to do 
that, Mr. Degnan? I mean, you know, you said that you would 
like to establish a local relationship. I mean, have you all 
asked to meet with them periodically and been refused?
    Mr. Degnan. We have not been refused in actuality. When I 
was the Mayor in the Village of Brewster and we received the 
2007 review report, I made it my business as Mayor to contact 
EPA and indeed did talk to staff people and talked about the 
review report.
    However, none of the future intentions of the capital 
expenditures, the actual construction, the relationship with 
the source site was discussed at that time, and I can assure 
you, sir, that I am proactive in my efforts to communicate to 
form relationships.
    Mr. Boozman. I don't dispute that at all, that really is 
important in understanding what is going on and getting 
insight. Maybe it's something that we can help facilitate. Can 
you tell us about, you know, how this went on? Can you tell us 
about some of the health aspects that maybe some of your folks 
have experienced here? How did you know this was going on and 
what happened?
    Mr. Hickman. Was that a question for myself.
    Mr. Boozman. Somebody can jump in and answer.
    Mr. Hickman. I would say when we had the meeting at your 
house a few weeks ago and Congressman Hall was there, some of 
the stories that were told were just to me heartbreaking. I 
couldn't believe that people--and you know, the problem is when 
you have health issues and you have a Superfund site, you can't 
say this is related to that, but it certainly looks like there 
is some connection there.
    And there were problems from that one woman that was just 
terrible that she was going through with her child, and I spoke 
with another woman afterwards. I think the occurrences of 
cancer, which is a very scary thing, and I say to myself every 
day, how would you feel living there with your family there, 
and I know, Debra, you said get out of this hole or get out of 
this trap. It is a very, very difficult thing for me to 
comprehend.
    Ms. Hall. When I first found out that we were contaminated, 
I started going door-to-door and people were very open with me 
and telling me about illnesses that they had or that their 
family had or that their kids have, and I was hearing a lot of 
the same things.
    Some of the people, after getting their water systems in, 
they feel much better and they are back at work, and they are 
moving on, but there is lots of people with illnesses in the 
neighborhood, and I did ask the Department of Health to do a 
health statistics review. Unfortunately, that means it is only 
statistics, so 43 percent of the population in the study have 
never been exposed to the contaminants. This study is done with 
somebody sitting at a desk in Albany and they look at census 
reports of blocks that they have and that's how they do the 
study. They don't actually go door-to-door and talk to people 
like I did, so they don't really know firsthand, and I don't 
think it is a very good way to do health review.
    Unfortunately, I am being told it is the only thing that we 
have, but there is lots of people that don't want to speak out. 
They either don't want the cameras on them or they don't want 
to embarrass their kids. Their kids have gotten better and they 
moved on, and they don't want to embarrass them or put any kind 
of spot light on their home, so a lot of people are quiet but 
they are suffering, lots of them.
    Mr. Boozman. Well, thank you for your testimony. I enjoyed 
it. It was very helpful. You know, as a person that is directly 
affected living there and you two guys in fighting the battle 
trying to get these problems solved, it is a tough issue, and 
we appreciate all of you for your advocacy, and like I said, it 
is really very helpful. Thank you, Madam Chair.
    Ms. Johnson. Thank you. Mr. Hall.
    Mr. Hall of New York. Thank you, Madam Chair. Ms. Hall, the 
testimony you detailed, the impact the EPC plume has had on the 
home assessments and the economic fortunes of the families in 
your area, could you describe whether or not there are any day-
to-day costs that are not readily reflected?
    For instance, we often hear that a gallon of a bottle of 
water is expensive and even more expensive than a gallon of 
gasoline. I can't imagine a family who believes its well may be 
contaminated with TCE will drink water from the tap. So what 
kind of day-to-day costs, if any, or inconveniences persist 
even now, as a result of the pollution.
    Ms. Hall. Well, many homes have two systems. One for the 
water and one for the air. Of course, that's run by 
electricity, and we all know that electric bills have gone up a 
lot, so we have that extra expense. The home buyers, or the 
person living at the home, is paying, paying the electric. We 
are lucky that the EPA does come and do our water testing. 
Unfortunately, the people that have only a little bit of 
contamination, they don't have that option. They either have to 
buy their own system, and do the maintenance on that system, 
and do the water testing on that system. Because it is 5 parts 
per billion they are not being protected. So either they have 
to pay a lot of money, like five grand, just for the system.
    Mr. Hall of New York. Excuse me, I only have five minutes 
so I am going to jump in once in a while. Are you aware of any 
neighbors who are below that 5-part per billion level who have 
bought that system?
    Ms. Hall. I do.
    Mr. Hall of New York. Do you know how many of them?
    Ms. Hall. I only know of two.
    Mr. Hall of New York. How much does a system cost.
    Ms. Hall. Well, it is probably about $3,000.
    Mr. Hall of New York. So if you have 4.8 per billion, 
you're probably going to get a pretty decent amount_your 
family's health would be affected, you're virtually the same as 
if it was 5.
    Ms. Hall. Right, because the standards should be lower, you 
are going to be affected if it is 2.
    Mr. Hall of New York. So the contamination from Hopewell 
Precision first showed up as a direct water contaminant, but in 
your testimony, you talked about vapor intrusion. How extensive 
is that threat? Is it growing? And how would you assess the 
EPA's local efforts to deal with that problem.
    Ms. Hall. The EPA did a fantastic job. They went to many 
homes, I think over 200, maybe close to 300 homes and tested, 
and they did find quite a few homes that had good water but bad 
air. In fact, the home in the area that had the worst air had 
perfectly good water, but yet it was still affecting this 
household. They had a house before they knew about the air. It 
was known as the sick house because once they moved in, 
everybody living there was always sick, and somebody there had 
gotten prostate cancer. Now that the air system is in, people 
are not getting sick anymore living in that house, you know, I 
don't know if it is a coincidence, but I don't think so.
    Mr. Hall of New York. Thank you very much, Ms. Hall.
    Mayor Degnan, I was wondering if you could tell us--I 
gather overall that your experience once the airstrippers went 
in was positive, although it is not improving the site as 
quickly as it should. Would more airstrippers be a help?
    Mr. Degnan. Certainly in 2007, when EPA installed the 
airstripper at the source, I am sure that it will have an 
impact on accelerating the removal of the contaminants, but 
keep in mind that it took nine years to get to a point where we 
remediated the soils, and this problem was discovered in 1982.
    Here we are in 2008, and frankly, I understand that 
hydrology and geology of the area make it difficult to map the 
aquifer, but we don't know if the plume has migrated, and again 
we come back to communication of plan of action and in 
informing the local stakeholders of status and putting people 
to people together, it has much more potential for alleviating 
the concerns of our local population.
    Mr. Hall of New York. So you jumped ahead and you answered 
a question that I was going to ask about the plume. There 
hasn't been a measurement done, or any kind of monitoring, that 
shows the size of the plume or the migration underground?
    Mr. Degnan. Well, there are extraction wells that are 
tested on a biyearly basis by our water superintendent, 
although, by Board of Health standards, it is supposed to be 
tested on a quarterly basis. We are testing on a monthly basis 
so all stakeholders involved up to the EPA, I am sure, realize 
the severity of this problem.
    What we are really looking for is better communication and 
a statement of partnership in maintaining the operations and 
maintenance into the future.
    Mr. Hall of New York. And under the Massachusetts model 
that you described, who is responsible for monitoring self-
certification, and is there any enforcement made.
    Mr. Degnan. Self-certification in the environmental results 
program of the Massachusetts DEP is an extremely successful 
program. Prior to implementation of the program, regulatory 
compliance for the businesses I mentioned were under ten 
percent. Within three years of the self-certification program, 
compliance went up over 90 percent. It has been from my 
observations and studies a very successful program.
    Now, we all know in this room that if you remove the stick 
that there will be people who violate the law and take credit 
for being in conformance, so there are unannounced audits that 
take place, and if it is found that one of these businesses is 
in noncompliance, they are fined and given an opportunity to 
correct themselves.
    This has all got to be documented and part of the 
environmental management system statement, so again, when it 
comes to next practices and what the EPA might be contemplating 
in parallel with their compliance programs, I think their 
conformance-based environmental management system that starts 
from strategies at the top but also engages resources at the 
local level that will provide training and education will go 
along way in mitigating issues of water pollution in New York 
State.
    Mr. Hall of New York. Thank you, sir. And in regard to Mr. 
Hickman, I am curious, has the site at Hopewell occupied a 
significant degree of town time and resources.
    Mr. Hickman. It has taken somewhat of the many issues that 
we face on a weekly basis. It does take quite a bit of our 
time. Again, I say, you know, correspondence with the EPA has 
been terrific on their website, we found to be very helpful.
    When the time for assessment came, it took up a significant 
amount of time for us to try to figure out how to make 
allowances for contaminated areas compliant with office real 
property taxes, and of course the issue came up of the 
Superfund perpetrator, who requested the large reduction in 
their assessed value, so we have some time into it. I hate to 
think about the economic aspect. And when I look at this 
situation, I focus mainly on the health aspect. That is really, 
really troubling.
    Mr. Hall of New York. Well, certainly the health aspect is 
the most troubling for all of us. But as Supervisor, in a time 
when everyone is aware of the difficulty of people being able 
to pay their property taxes, and the unpopularity of the 
property taxes, everything you do in the town is paid for 
halfway. So time is money as they say, and any other resources 
that you have to put into it, not to mention that if the 
assessments at contaminated sites are decreased, in effect, 
will result in raising the burden on the residents.
    So all this is being done by a corporation, which at this 
point is not being made to pay for it.
    Mr. Hickman. It would appear that way.
    Mr. Hall of New York. I was glad to see you mention the 
preventive action in your testimony, and resources aside for 
the moment, what thoughts do you have on specific types of 
reviews, requests for information or enforcement actions that 
would best achieve preventive goals?
    Mr. Hickman. Recently New York State has instituted some 
laws that we will be implementing obviously as soon as the 
Building Department, as far as enforcement, registering 
businesses, which we never had to do before, businesses which 
will enable us to get a better grasp on potential hazards.
    I would like to see on a federal level the licensing of 
people that use these kind of chemicals and one--well, 
obviously prevention--an ounce of prevention is worth the 
common cure, and in this case, as Debra said, 48 55-gallon 
drums were not accounted for at this site, so how could that 
be?
    So this chemical and similar chemicals really need to be 
certified in their use and in their return. You know, you have 
follow-up as they say, and we look to the federal level for 
some kind of legislation and enforcement. We certainly don't 
have the resources, but we will implement at the building 
department level where we can.
    Mr. Hall of New York. What is more alarming to me, if I 
understood Ms. Hall's testimony correctly, is that those 48 
barrels----
    Ms. Hall. 48 55-gallon barrels.
    Mr. Hall of New York. Were brought in after the EPA was 
already aware there was a problem.
    Ms. Hall. It was brought in two years after the DEC had 
said that everything was fine and dandy with the site, and that 
they did their investigation and that there was--no homes were 
at risk of any contamination, and that was false.
    Mr. Hall of New York. So EPA had not been involved.
    Ms. Hall. No, that was DEC.
    Mr. Hall of New York. The last question I have for Mr. 
Hickman, has there been any talk that you heard for using 
airstrippers or filtering the water from the aquifer in the way 
Mr. Degnan has testified?
    Ms. Hall. I heard that hopefully soon we are going to find 
out, but I don't know when that will be. I am just afraid of 
having a situation like what's going on in Brewster and having 
to talk about it 25 years later. I don't want to be here 
talking about this 25 years later. We shouldn't have to.
    Mr. Hall of New York. No, we shouldn't be talking about it 
now. It should have already been done.
    Ms. Hall. Absolutely.
    Mr. Hall of New York. My point is, and then I will yield 
back, but my point is that the closer to the occurrence of the 
spill that you can take remediative action, the better, the 
smaller the plume, the better, the less time for the water to 
migrate, the better--I realize a mile and a half plume at the 
Hopewell site is going to be very difficult to deal with, but I 
am still interested to hear what the DEC and the EPA have to 
say about the feasibility of this. Of course it is obviously 
going to be expensive in any case, but removing water, 
filtering it and then putting pure water back somewhere would 
seem to be the ultimate answer if cost were no object. Now, we 
all know in this day and age, cost is an object.
    Mr. Hickman. Debra, do you remember the EPA gave a 
presentation at school a couple years ago, they had some 
hydrology, scientists, of that nature? I do think the first 
thing they do is get you clean water, but as far as remediating 
this chemical, it is a slow-moving process, I guess it is--I 
think the problem is it is in deep wells, it is very deep in 
the water system.
    Ms. Hall. It is in shallow, it's in deep, it is a half mile 
wide, a mile and a half long and still moving, and there is 
such an abundance of water, it would take us a century to pump 
and treat. I really don't see it as being something that would 
be feasible to clean our water.
    Mr. Hickman. But they do offer a couple of other options--
--
    Ms. Hall. Right, until I hear what they say, I don't know.
    Mr. Hall of New York. We will ask the next panel what they 
think about that. But thank you all for your testimony on this. 
Thank you for your championing this cause and for all the hard 
work you have done over the years.
    Ms. Hall. Thank you for having this. I appreciate you 
coming to Hopewell Junction.
    Ms. Johnson. Thanks to all of you. Thank you very much.
    Mr. Hall of New York. While we are changing panels, I would 
also like to also acknowledge the presence of Assemblyman Mark 
Molinaro who has joined us.

 TESTIMONY OF GEORGE PAVLOU, DIRECTOR, EMERGENCY AND REMEDIAL 
RESPONSE DIVISION, U.S. ENVIRONMENTAL PROTECTION AGENCY, REGION 
2, NEW YORK, NEW YORK; VAL WASHINGTON, DEPUTY COMMISSIONER FOR 
REMEDIATION AND MATERIALS MANAGEMENT, NEW YORK STATE DEPARTMENT 
OF ENVIRONMENTAL CONSERVATION, ALBANY, NEW YORK; DR. G. ANDERS 
      CARLSON, DIRECTOR, DIVISION OF ENVIRONMENTAL HEALTH 
 INVESTIGATION, NEW YORK STATE DEPARTMENT OF HEALTH, TROY, NEW 
                             YORK.

    Mr. Pavlou. Thank you, Madam Chairwoman and Members of the 
Committee, for the invitation to appear here today on behalf of 
the USEPA. Thank you for the opportunity to discuss EPA's 
efforts to address actions that we have taken at the Superfund 
sites in New York's 19th Congressional District.
    EPA considers vapor intrusion from contaminated soils or 
groundwater into homes and buildings to be a significant 
environmental concern and one in which the science is still 
evolving. EPA and New York State have paid increased attention 
to indoor air concerns at sites where soil or groundwater is 
contaminated with volatile organic compounds or VOC's. Given 
the complexity of the evolving science in this area, and the 
difficulty of relating contamination in the soil and 
groundwater to indoor air at a given location, EPA's approach 
to determine whether there is a likely concern at a given 
location is to conduct sampling from beneath the building, and 
of the indoor air environment when the possibility of vapor 
intrusion at levels of concern cannot be ruled out.
    A key point to keep in mind is that individual site 
characteristics such as geology and soil conditions as well as 
the chemicals present can greatly affect the potential for 
vapor intrusion and may considerably vary from one home to the 
next.
    Two common chemicals of concern for vapor intrusion sites 
are TCE and PCE. These contaminants occur at approximately one-
third to one-half of NPL Superfund sites, approximately one-
third to one-half of EPA Superfund sites. The agency's ongoing 
human health assessment of TCE is a complex scientific 
activity. The EPA draft TCE health assessment did undergo 
independent peer review by the Agency's Science Advisory Board 
in 2001 and in September of 2004, the Commission, the National 
Academy of Sciences report, to assess the critical scientific 
issues that should be addressed in any health risk assessment 
of TCE. NAS provided the report in July of 2006. The Agency is 
considering the scientific advice of the NAS as well as 
recently published scientific literature, as it proceeds with 
the development of a new TCE health assessment. The TCE health 
assessment is also a top priority for EPA's chemical assessment 
program and expects the draft assessment to be reviewed in 
December of 2008 followed by a release of the draft or 
independent peer review and public comment in 2009.
    At this point, I would like to address two of the Superfund 
sites here in the 19th Congressional District, the Hopewell 
Precision site and the Shenandoah Road site. Though these sites 
have similar groundwater contamination problems, one site has 
experienced widespread vapor intrusion, while the other site 
has not. The Hopewell Precision area groundwater contamination 
was caused by a small manufacturer of sheet metal parts and 
assemblies who disposed of painting and degreasing wastes 
directly in the ground, resulting in a groundwater 
contamination extending about one and one half miles long.
    In March 2003, EPA provided a quick response to the EPA's 
identification of several contaminated residential wells. Since 
that time, EPA has sampled 450 residential drinking water wells 
and installed carbon filtration systems with 39 wells that 
exceeded the drinking water standard of 5 ppb for TCE.
    The New York State Department of Environmental Conservation 
installed similar filtration systems on 14 additional homes 
where the well water exceeded the state standard of 5 parts per 
billion trichloroethane, TCA.
    Between April 2003 and March 2008, EPA conducted sampling 
at 278 homes to determine whether vapor intrusion in homes, you 
know, has taken place. To date, EPA has installed sub-slab 
ventilation systems in 53 residences to mitigate the intrusion 
of TCE vapors into these homes. These ventilation systems have 
been successfully addressing vapor intrusion problems. At 
present, the EPA has spent $8.5 million in Superfund funds on 
activities at the Hopewell site.
    Currently EPA initiated a remedial investigation and 
feasibility study as part of the long-term site cleanup phase. 
We expect to release the report to the public during the summer 
of 2008.
    In addition, EPA is also preparing a focused feasibility 
study to evaluate options for alternative water supplies to 
address the groundwater plume. We expect this study to be 
released for the public later this spring. The Shenandoah Road 
Groundwater contamination area site is located here in East 
Fishkill. The investigatory work by New York State DEC and EPA 
discovered perchloroethylene seeping from a 1200-gallon septic 
tank, which was responsible for the contaminated water. About 
6,000 cubic yards have been removed and residential wells have 
been tested.
    Today EPA, with a total of 105 residential wells--I'm 
sorry, EPA, as well as IBM, installed more than 100 residential 
well treatment systems into homes and continue monitoring the 
affected homes and nearby wells as it continues to address the 
immediate threat.
    Between April 2004 and March 2008, EPA collected sub-slab 
samples from 78 of the residences in the vicinity of the site 
to determine vapor intrusion problems. EPA determined that five 
properties should receive vapor mitigation systems. The 
installation of these systems is expected to be performed by 
EPA over the next few months. The other homes will continue to 
be monitored during the winter heating season.
    EPA has also been working on a permanent solution, to 
address the groundwater contamination in the Shenandoah Road 
area. The solution involves securing a public water supply 
system to the area. Under an EPA order, IBM agreed to construct 
a waterline that will serve approximately 150 homes at a cost 
of around $10 million. Work on this portion of the project is 
progressing and the waterline is expected to be completed by 
this fall. IBM is also performing a remedial investigation 
feasibility study investigation which should be completed in 
2009.
    I would like to emphasize that EPA will continue to work 
closely with the New York State DEC and the New York State 
Department of Health to address all phases of site remediation, 
including the vapor intrusion issue in New York State. The 
vapor intrusion issue presents unique challenges that EPA and 
the states will have to address. As more sites that have vapor 
intrusion problems are identified, we anticipate the challenge 
will only get larger.
    Before I close, I would like to thank Representative Hall 
for his ongoing interest in support of these sites. Thank you 
again for the opportunity to address the Subcommittee, and I am 
happy to answer any questions.
    Ms. Johnson. Thank you very much. We will now hear from Ms. 
Washington.
    Ms. Washington. Thank you, Chairwoman Johnson, Ranking 
Member Boozman, and Congressman Hall for bringing this 
Subcommittee to the Hudson Valley. On behalf of Commissioner 
Grannis, I want to thank you for providing me with the 
opportunity to testify at today's hearing. We really appreciate 
you doing this today.
    Our experience with environmental remediation here in New 
York goes way back. Love Canal was really the genesis of the 
federal Superfund laws and the state Superfund laws. And our 
experience has grown to include new problems as they emerge. We 
have seen a lot of these problems associated with brownfield 
remediation, and we have talked a lot today about the unique 
and often enigmatic contamination from vapor intrusion.
    Starting with the Superfund program, just briefly, I am 
going to do my best to try not to repeat what others have said 
about some of these problems, but I want to say over the years, 
we have listed 2,266 sites in New York as posing a significant 
threat to the environment, which is our standard for inclusion 
in the state Superfund program.
    More than half of these have been fully remediated, which 
means that there are still a substantial number that still need 
to be addressed. It is a huge problem.
    We have developed a very successful partnership with EPA 
and of course with the Department of Health in cleaning up 86 
sites that are on the National Priorities List. But we are also 
always adding to our list of contaminated sites. A few reach 
the Superfund status every year, but there are many thousands 
of others. We have 16,000 petroleum spills every year. We know 
there are thousands of brownfields. There is no complete 
inventory, as you know. Hundreds of sites have participated in 
our various brownfields programs, but we have a long way to go 
in cleaning up these sites, perhaps thousands of which are 
plaguing our cities. Buffalo is 40 percent brownfields.
    With this level of challenge, it is really important to 
fully fund the remedial programs that have been enacted at both 
the state and federal level. New York has put a lot of money 
into these programs, as has the federal government, but we 
really do need new funding for the federal Superfund.
    Over the years, the federal government has spent $.75 
billion in Superfund sites in New York_these are estimated 
numbers_New York, 1.39 billion; and responsible parties, 4.51 
billion.
    I mention these numbers to point out that what drives that 
68 percent that is being paid for by private parties is the 
fact that the federal government has the money, or in the past 
has had the money, to clean up these sites in negotiations that 
aren't working out; that we take action and then go back and 
get recompensed later.
    But that's an important statistic, the fact that we have 
been able to leverage 68 percent of the money that is spent on 
federal and state Superfund sites in New York by having that 
ability to go in if the PRPs don't clean up these sites.
    So again I'm urging_the Commissioner is urging_that we 
fully fund Federal Superfund. It is really important to all 
these programs.
    So also equally, it is important that the state and federal 
government enjoy a strong partnership to protect the public 
health from releases of hazardous substances, and we have had 
that successful partnership in New York.
    I want to say a little bit about our program for vapor 
intrusion in New York State. At every site we are looking at 
the potential for vapor intrusion wherever there are volatile 
organic chemicals, VOC's, TCE's, of course, prominent among 
them.
    We are also going back and looking at the Superfund sites, 
state and federal Superfund sites that have been cleaned up 
already and have been closed. We are going back again, looking 
at those sites that have a potential for posing vapor intrusion 
problems. We have developed a list of these ``legacy'' sites. 
As far as I know, we are the only state in the entire country 
that is doing this. The federal government again has been very 
cooperative in working with us in doing this. Fifty-five of 
these closed sites where there is potential for vapor intrusion 
are federal Superfund sites, and the EPA is addressing every 
one of them.
    We recognize Congressman Hall's bill, H.R. 5527, and its 
purpose in developing a tight, protected standard for TCE's as 
a very laudable goal. We again, in our own approach to TCE in 
New York, I think, it is very sophisticated. I think Mr. 
Carlson will talk more about it. We look forward to working 
with Congress and the EPA in developing a national approach to 
TCE.
    Again, I thank you for the opportunity, and on behalf of 
Commissioner Grannis, for letting us testify today.
    Ms. Johnson. Thank you very much.
    Mr. Carlson. Good morning, Chairwoman Johnson and Ranking 
Member Boozman and Congressman Hall. I thank you very much for 
the opportunity to speak with you today. I am here also at the 
invitation of Commissioner Grannis. The New York State 
Department of Health participates as a partner with DEC and EPA 
and the Agency for Toxic Substances and Disease Registry in 
investigating, evaluating and responding to reported instances 
of toxic chemicals in the environment and particularly inactive 
Superfund sites and active RCRA facilities.
    The Department's role is to assure that appropriate data 
are collected to evaluate existing or potential human 
exposures. The Department considers the toxicity of chemicals, 
the nature of the exposures and, as necessary, carries out 
epidemiologic studies to identify adverse health outcomes.
    Further, outreach and education materials are developed for 
the community and physicians as we make progress in our 
endeavor to identify processes that can reduce, eliminate the 
exposures to human beings. These steps are done during the 
evaluation of the potential health impacts at federal Superfund 
sites such as Hopewell Precision, as we partner with ATSDR to 
develop public health assessments.
    A public health assessment is an evaluation that is 
conducted to determine whether or not and if so to what extent 
people have been exposed to hazardous substances from a site. 
If the assessment indicates that there have been exposures, the 
associated risks and possible health effects, particularly for 
children, are examined. Community concerns are considered as 
follow-up actions are developed to reduce exposures. The 
evaluation results in a public health action plan that offers 
measures to protect the community.
    As part of my testimony, I have provided a copy of our 
public health assessment for Hopewell Precision, the Hopewell 
Precision Area Contamination, and this document is also 
available on our web page.
    The Public Health Assessment made several recommendations 
that were directed at reducing exposures to contaminated 
drinking water and contaminated soil vapors. This has been done 
by fully defining the contamination in the area and maintaining 
the appropriate treatment systems to mitigate exposures.
    As the Public Health Access Action Plan, part of it, the 
Department continues to work with the communities of Hopewell 
Junction and Shenandoah Road to include them in the New York 
State Volatile Organic Chemical Exposure Registry.
    The Exposure Registry was established in 1999 as a tool to 
evaluate health assessment, health status and provide for long-
term follow-up for communities and individuals with exposures, 
documented exposures to VOC's.
    The Registry is currently evaluating exposures and the 
health status of New York State residents at locations across 
the state where drinking water or indoor air has been 
compromised from landfills, industrial sites or other sources. 
People enrolled in the registry are kept informed as the 
process goes on.
    For the Hopewell Precision and Shenandoah Road sites, 
sampling information was used to identify impacted households, 
questionnaires requesting information concerning exposures and 
health outcomes were distributed to 75 Shenandoah Road 
households in 2000, and in 2003, contact was made with 47 
Hopewell--Precision households who had private well water 
contamination, and in 2006 with 192 homes where there was soil 
vapor intrusion issues.
    We had a 61 percent response rate at Shenandoah Road and a 
26 percent response rate at Hopewell Junction, and I think Ms. 
Hall made mention of the problem with getting people to 
respond, and it is a very real problem we deal with, but we 
proceed with that by dealing with, as she mentioned, looking at 
statistical data.
    We are now under way looking at existing health outcome 
data that the state has through our Vital Records, which is our 
birth certificates and information that they contain, the New 
York State Congenital Malformations Registry and the New York 
State Cancer Registry.
    Data are being analyzed to evaluate possible adverse birth 
outcomes, some of which are low birth weights, congenital 
malformations and cancer for both Shenandoah Road and Hopewell 
Junction, along with the other sites in New York State.
    These data will be used to compare levels of adverse health 
outcomes in impacted areas to the levels with the rest of the 
state, excluding New York City. This type of review, sometimes 
called a health statistics review, cannot link causes and 
effects, but can suggest relationships that merit additional 
research. We expect a complete outcome portion of this 
evaluation in the spring of 2009 and a cancer incident study 
about six months later.
    The Department staff worked with Hopewell Precision 
residents in defining the boundary of the study, and the 
communities will be engaged as the project moves on. Once 
completed, the report will be shared with the residents and 
other stakeholders, but we will present it in a manner that 
personal confidential health information will not be 
compromised.
    In summary, I would say that in collaboration with ATSDR, 
the Department developed a comprehensive evaluation of 
environmental contamination around the sites to identify the 
exposures. We developed the health studies that we are carrying 
out, and we worked with ATSDR, EPA and DEC in the community as 
we work to mitigate, continue to mitigate exposures. I think at 
this point I would say thank you very much for the opportunity 
to talk to you again, and I will be certainly happy to answer 
any questions that you may have.
    Ms. Johnson. Thank you very much, Mr. Carlson.
    Mr. Pavlou, you indicated that some of the findings on some 
of the studies have been more related to recent scientific 
information. Have you recommended doing something, and then if 
you find more current signs, will it be modified?
    Mr. Pavlou. The Office of Research and Development in the 
EPA in Washington did respond to all these evaluations in terms 
of the new sciences as they come out. However, the guidance 
from Washington that we have right now does not preclude us 
from using the latest and best credible science such that when 
we do have to make decisions regarding vapor intrusion in 
houses in Hopewell Precision, it would allow us to install 
those systems on the basis of the new credible science because 
the guidance says use the lines of evidence that you have at 
your disposal to make site-specific decisions such that we are 
able to install mitigation systems in houses where not even the 
vapor intrusion has reached the house.
    In other words, if we do find it in the soil gas matrix, 
the vapors the soil gas matrix underneath the house exceeding a 
certain level of concentration we are allowed to go into the 
house and install those mitigation systems before, you know, 
the intrusion happens. So I do have that flexibility to act, 
and we have acted in that regard as well.
    Ms. Johnson. You have stated that the TCE assessment is top 
priority for EPA's chemical assessment program. What does that 
mean to be top priority?
    Mr. Pavlou. This is a priority for the Office of Research 
and Development to conduct a chemical assessment. They have 
reviewed all the recommendations from the National Academy of 
the Sciences. They are following up with those recommendations 
to the point whereby the end of this calendar year, they are 
going to be preparing a report for interagency review, meaning 
that it will eventually go to the Office of Management and 
Budget. It will be reviewed by other scientific agencies of the 
government, for example, like NASA, Department of Defense, the 
agency for Toxic Substances and Disease Registry, they are 
going to get those comments, and eventually they are going to 
consolidate those and address those comments such that by the 
following year they can issue that report for a peer review, an 
independent peer review.
    Now, I have to stop at that point because I really do not 
know what those comments are going to be from a peer review 
perspective. There could be issues that they may, you know, 
raise to the point where it may delay it in terms of finalizing 
that report.
    Ms. Johnson. Thank you. Now I understand at one point a few 
years ago, EPA proposed a TCE risk concentration of 2.5 
micrograms per cubic meter. When did this get proposed?
    Mr. Pavlou. I wouldn't say it was proposed. It was--our 
guidance allows us to do these risk assessments on the basis of 
toxicity values that we use for TCE. The level that corresponds 
to the one in a million, one additional cancer per, you know, a 
million people that would translate to approximately .016 
micrograms per cubic meter.
    However, the standardized methodology that you use to 
detect whether or not you are achieving that level can only get 
you down to 2.6 micrograms per cubic meter. However, there are 
other sensitive analyses that we can use that can get us down 
to .38. I know I am getting very specific in terms of the 
numbers. The point I am trying to make is that the risk level 
using the latest science that we have would be 1.6 micrograms 
per cubic meter.
    Now, keeping in mind that other people may be using 5, you 
know, micrograms per cubic meter, but that doesn't necessarily 
mean that their science is wrong and our science is right. It 
all has to do with the risk assessment that we use and the 
assumptions that we have made and the risk management decisions 
that we have made to come up with these numbers.
    But the bottom line is that they are both in the same risk 
range. One is 1 times 10 to the minus 6, the other may be 3 
times 10 to the minus 6, but they are in the acceptability 
range for us, you know, for using those numbers.
    Ms. Johnson. I know that industry challenges standards. 
Does that have any effect on the final decision?
    Mr. Pavlou. Usually I really--I really am not the expert, 
you know, in terms of what the industry has, you know, 
submitted in terms of their challenges, but I can assure you 
EPA, at least on our level, uses the latest and best credible 
science every time we need to make a decision.
    Ms. Johnson. Okay, thank you very much. Ms. Washington, 
what has New York DEC found in its vapor intrusion follow-up 
evaluation of closed legacy sites?
    Ms. Washington. I think there are 421 of these, and we 
probably sampled thousands of houses around the state, and we 
put in systems in literally hundreds. The sites that we have in 
the mid-Hudson Valley, these legacy sites, we have a number of 
them, and right now, these are being evaluated right now. So 
that would be Pawling Rubber, Texaco Research Center, Orange 
County Landfill, these were all closed a long time ago. They 
are undergoing these analyses right now.
    Ms. Johnson. You did state that the authorization of the 
federal Superfund program should be a top priority. What are 
the on-the-ground implications for contaminated sites in New 
York if we continue along our current path of not authorizing 
the Superfund?
    Ms. Washington. Well, the problem doesn't really show up at 
the kind of sites we have been talking about today. The high 
profile sites with large impacted populations are where the 
government is being most aggressive in trying to get things 
done. I think it is the smaller sites, a lot of sites in 
western New York that are lagging behind perhaps where they 
should because these negotiations are protracted. It is easy 
for people to hide and, without the threat of the government 
going in and cleaning up these sites, they are just sitting 
there. But again, they tend to be the smaller sites with a low 
profile. I think there is a very good effort on EPA's part and 
obviously the DEC to prioritize and get to the sites.
    Ms. Johnson. Have you compared the sites here with other 
parts of the country?
    Mr. Carlson. In terms of what, vapor intrusion?
    Ms. Johnson. Vapor intrusion or the number of sites.
    Ms. Washington. Well, the number of sites, you know, we are 
up there with the other industrial countries. I don't know if I 
have ever seen an actual comparison of number of sites, but we 
are one of the more contaminated states.
    Mr. Pavlou. It is an evolving issue, and I think the more 
we test for these sites, the more vapor intrusion sites we are 
going to be finding. It is just that it was put off to the 
national level only recently in the last couple of years, so we 
are gearing up essentially to study vapor intrusion houses 
because long before that, one assumed that if the groundwater 
was contaminated in lower levels, less than the drinking water 
standard, that these vapors wouldn't necessarily intrude and 
rise into people's houses, but that's not the case.
    Our own experience here in the region because this has been 
a high priority for us here in the region, you know, indicates 
it doesn't necessarily matter what is in the groundwater you 
have, and I think you know past testimony from one of the 
previous panelists indicated that in some cases where you may 
not detect anything in the groundwater, there remains enough 
residual vapor in the soil to allow its rise at some point in 
time. Going along the lines of, you know, Val Washington was 
indicating we in Region 2 are having the prime responsibility 
for evaluating all of the Superfund sites here in New York 
State. We have about 103 of those National Priority List sites, 
and we have gone through a lot of technical evaluation to 
determine whether or not a whole lot of these sites are at 
risk.
    And if I can give you some statistics, we determined that 
29 of those 103 sites be ruled out, that they are not at risk. 
We sampled 34 of them. 18 of them we discovered that it doesn't 
really matter at this point in time because there was no 
development on top of these sites, just taking into 
consideration Hopewell Precision, you know, as a Superfund 
site. We have a stretch of one and one-half miles long of the 
plume that we have to consider. In some sites in rural New York 
and upstate New York, there are no houses for us to determine, 
and we are doing a remedial investigation for three of them, 
and we have an additional 19 to evaluate because we can only--
and we prefer to do this work during the heating season when 
the vapor intrusion becomes a little more dominant in terms of 
detecting it and allowing it to enter the house because the 
ventilation is not there to allow it to escape.
    Ms. Johnson. Any health impacts determined?
    Mr. Pavlou. Well, usually--I'm not the man to address 
that--but usually TCE does affect the central nervous system.
    Mr. Carlson. I think we--we work closely with EPA in our 
process for dealing with vapor intrusion, and we have a very 
similar approach, but we have developed general air guidelines 
for several chemicals but particularly for TCE of 5 micrograms 
per cubic meter, and this has been questioned is this 
protective or not, but what needs to be understood besides we 
went through a rigorous toxicological review of all the 
available data, and in fact, we developed our number prior to 
the NAS, National Academy of Sciences, report coming out, and 
their conclusions affirmed the methods and the processes we 
used in developing our number.
    We also had a peer review by an expert panel that included 
toxicologists, chemists and other scientists including a 
chemist that is involved in one of the larger vapor intrusion 
communities in the state, Endicott, that was brought to us by 
IBM.
    And we developed a matrix method where we compare indoor 
air levels to sub-slab levels, and the way that process works 
is we, in fact, do mitigate homes when there is no explicit 
evidence of contamination in the home for vapor intrusion. If 
there is--are elevated levels of soil gas under the home, 
because we see that as a potential, so we do many, many 
mitigations on the basis of potential, and in effect, we are 
cleaning up when we find less than a part--microgram per cubic 
meter in the indoor air, so we have a general air guideline 
that says if it is above that we are doing it regardless of 
what you want to do, but we can still carry out the mitigations 
at much lower levels. Our numbers include both the cancer and 
noncancer endpoint, so it is a comprehensive number that deals 
with the potential health impacts.
    Ms. Washington. When the Department of Health is doing its 
analysis in this comparison between the sub-slab and indoor 
air, many times we get anomalous results because there are 
other sources of TCE besides soil and vapor gas. So we 
actually, with the Department of Health, go into the homes, 
obviously with the owner's permission, and do a fairly complete 
inventory of what is in the cleaning closet and what is in the 
garages. There are still a lot of very toxic chemicals in 
cleaning products. Some of them have been sitting around for a 
long time. But TCE_sometimes you get these anomalous results 
with no TCE in the sub-slab, and the household will have fairly 
high levels.
    Mr. Carlson. And this is an important point. As Val said, 
we do comprehensive inventories of what people have in their 
homes, and this is one of the reasons we prefer to proceed with 
mitigation. This is one of the things that makes sampling 
expensive because it is a time-consuming activity, and it is 
somewhat intrusive on people's lives, but we find a lot of 
chemicals in people's homes.
    We also do ambient air, so we know whether or not there is 
a source that is other than soil vapor or indoor air, and by 
doing this, we're actually getting a really comprehensive 
picture of what the sources are and what the potential exposure 
are. We have been able to help lots of people clean their 
houses out with other chemicals we weren't concerned with 
because when we do a sample, we don't just sample for TCE or 
PCE, we do a suite of organic chemicals, which would provide 
the homeowners with a great deal of information about what may 
be in their homes.
    Mr. Pavlou. The EPA follows the same protocols and 
procedures as well. But just to give you a point of reference, 
we have been able to reduce the cost of each mitigation system 
down to about a thousand dollars. We have Don Graham here 
spending five years up here studying the area, but to give you 
an appreciation of how much it costs to do one measurement, one 
sampling event here, it is in the neighborhood of about $3,000, 
so it makes sense for us from a cost-effective or cost benefit 
analysis if we do find something in the soils in the ground to, 
you know, instead of us having to go back a year from now and 
do the same sampling at a lot more money just to give comfort 
to the homeowner and save money for the government as well if 
we would install that system.
    Ms. Johnson. Thank you very much.
    Mr. Boozman. Thank you, Madam Chair. Dr. Carlson, Ms. 
Washington, in your opinion, do we need to be doing anything 
else to protect human health from exposure to TCE in the area?
    Ms. Washington. That's really the question that led us to 
our current program. Again, other states are not doing what 
we're doing. Massachusetts was mentioned for its environmental 
results program. We are doing a similar thing with dry 
cleaners. We need to do more, and I don't think self-
certification is enough. I think it has great results, but so 
many of these things you really want to get in there and do the 
inspections. I think our bulk storage programs have proven 
that. So, yes, I mean we have to go back and we have to look at 
dry cleaners, we have to look at other possible sources of 
vapor. This is emerging_vapor intrusion has become an issue 
only in the last few years, and I will say New York is ahead of 
the curve. One measure of that is our engineers that have been 
at the cutting edge of this work, as well as the DOE, DOH folks 
that have studied health implications and so forth are speaking 
all over the country. They are invited to conferences all over 
the country where people are learning from our experience.
    Mr. Carlson. Following up on that, I think one of the 
things that gives strength to our program, other than going 
back to all the old sites and actually sampling for vapor 
intrusion is a principle element of all our investigations.
    Many of the other states make their decisions based on a 
mathematical model. They have a few sample points and they 
crank them into a computer model and say, "Oh, vapor intrusion 
is not a problem." Well, we looked at that very closely in the 
beginning and we had some data and cranked it in, and it would 
say no problem, and we had houses that had significant issues, 
and we made the decision that modeling is not our watchword, 
sampling is. We are spending the money, as George said, 2,000 
to $3,000 per house to sample.
    When we have a neighborhood where we know there is an 
extensive problem, we don't necessarily sample every home, but 
we sample enough to know the pattern, and that's when we go in 
with what we call blanket mitigation, and that's in effect what 
we are doing with Hopewell Precision.
    We don't sample everything. We have a problem here we are 
going to address it and we make the offer to all the folks, and 
there is a small number that don't want it, and I would just 
add there is a spinoff benefit because these are the same 
systems that we use to protect homes from radon, and so we get 
an additional benefit from that. And a lot of these sites have 
been, just by happenstance, in counties in New York State that 
have high radon problems, so that has been an additional 
benefit.
    Mr. Boozman. You mentioned 5 parts per million as far as 
the reference for safety, so would you say that in reading the 
current literature and visiting with your buddies that are in 
the same position that you are in, you know, supposedly keeping 
up with these things, are you comfortable with that, with the 
current literature?
    Mr. Carlson. Well, first, let me correct. It is 5 
micrograms per cubic meter in air. This is an air number. There 
are a lot of numbers out there. California has a number that is 
reported at 0.16. There is other numbers that are, you know, in 
that range. But the issue for us is how we are applying it; how 
we are using it. In California, they have an air criteria 
number of 0.16, but they have a response level for vapor 
intrusion of a 120, so we have to be careful when people 
enunciate, state a number that is their response number. You 
have to look at what they are really doing.
    And in our case, this is a general air guideline that we 
have developed that says over an individual's entire lifetime, 
they should not be exposed on an ongoing basis to levels that 
exceed 5 micrograms per cubic meter. We are using that as a 
response to what we hope are very short-term exposures, and as 
a basis, a jumping off point from beginning the process to 
define cleanup.
    So to answer your question directly, we believe it is 
protective. That number as I said includes both cancer and 
noncancer outcomes. If you look at the risk ranges that are 
used to develop responses to Superfund sites our number of 
five, just as a cancer based number is in the range of .6 times 
10 minus 6 to l.5 times 10 minus 5.
    Now, in the Superfund program, the risk range, acceptable 
risk range for a cleanup, is 10 in minus 6 to 10 in minus 4, so 
we are well within that risk range for that fund.
    There will be, with time, new science that comes out. If 
the new science says that there is a need to change, a need to 
reevaluate, we will. Our toxicologists are continuing 
evaluating the literature, so we endeavor to stay on top of the 
science that is being developed around all the chemicals that 
we have as concerns about these waste sites.
    Mr. Boozman. Mr. Pavlou, I appreciate your work and 
appreciate working with the agency, and it sounds like today 
that as far as working with the individuals you know, the 
collaboration of the state is going very, very well.
    There is some concern about, you know, things taking a 
while and being perhaps a little bureaucratic, and I can 
understand that and that's something that certainly we need to 
work on very, very hard.
    The other thing that was mentioned was maybe a little bit 
in some situations, a little concern about the communication 
back and forth as to what we are going to do in the future, 
what is being done, and so I would really encourage, and again 
I know everybody gets busy. Those are things we can fix very 
easily, and I would encourage you to do that, so again, I 
appreciate the fact that your scorecard by the gentleman in his 
testimony is pretty good, so one thing, though, that does 
bother me, we have this TCE thing going on, and in your 
testimony, you talked about the original 2001 draft, you know, 
so this thing probably was started in the, you know, in the--I 
don't know, 1999's or 98's or whatever, so you know, it has 
really been dragging on now for nine or ten years.
    You do the original study, you go through the whole 
process, and then you decide you are going to do another study 
because of new information or whatever. We are at the process 
now where you had the National Academy of Sciences do a report, 
you know, based on that came out in July of 2006, and then you 
are talking about having a peer review that, you know, and I 
mean at some point, we really do have to make a decision, you 
know, based on the evidence.
    Now, if you use the idea that things change, we can't make 
a decision because it might change in the future, it is changed 
or whatever, you just can't operate that way. I mean we do 
operate that way sometimes in government, but it really is 
frustrating. You know, things in private enterprise, we 
wouldn't get anything done if it were done that way. Things 
wouldn't move forward, so we need to make a decision. And so I 
would really appreciate it if you would convey, you know, my 
wishes, and I think the wishes of the Committee that we really 
move forward, and you know what I would like, Madam Chair, is 
maybe to follow up on this in the future in either written, or 
have somebody come in and just visit with us six months from 
now. What's the progress, you know, that is being made, and 
then just follow up in a reasonable length of time as to the 
progress that we are making.
    When do you feel like--like you said, this has been going 
on for the last eight years at least, what is a reasonable time 
that we can expect a report that gives a decision?
    Mr. Pavlou. Sir, I will convey those recommendations and 
those observations to you and the Chairwoman and Congressman 
Hall.
    Mr. Boozman. Those aren't unreasonable as a scientist--I 
mean those aren't for you, Dr. Carlson, that is not an 
unreasonable request, is it?
    Mr. Pavlou. Well, I wouldn't view it, you know, to be 
unreasonable if it was a simple matter of science. At the same 
time, though, I will convey your wishes and your 
recommendations and observations to my peers in Washington and 
let them know that this was, you know, discussed at this 
Congressional hearing, and there was a sense of urgency to 
finalize the science as we know it right now.
    If there were to be changes in terms of, you know, what 
that health assessment should be in terms of the toxicity 
values of TCE to make those changes later on, so I will convey 
that.
    Mr. Boozman. So you have a feeling of when we can get a 
final----
    Mr. Pavlou. I am not the person in charge of that, sir, so 
I will convey that to those who are, you know, working on it in 
Washington.
    Mr. Boozman. Well, again that's something else. Maybe we 
can have a written, you know, question in that regard submitted 
to the agency but--and don't misunderstand, I think the feeling 
I have gotten today, you know, as far as your work, as far as 
the agency's work has been very positive.
    And the other thing that you have done is realizing--I mean 
you really haven't stuck to that, you have actually acceded 
that in some cases in the area in the sense that--so you really 
are doing, you know, what you are supposed to, but again, I 
think that we do need to get on the stick and get the, you 
know, a final thing, so we appreciate your hard efforts.
    And then also I am encouraged, the testimony that you 
talked about, you know, the Massachusetts model, and it sounds 
like you all are even improving on that in preventing--we got 
to clean up what we have done. There is no excuse for having 
the same thing happen over and over again in the future, so I 
appreciate the state being very proactive in that regard and 
really becoming involved. Thank you, Madam Chair, thank you.
    Ms. Johnson. Thank you very much.
    Mr. Hall of New York. Thank you, Madam Chair. And in 
following up on Mr. Boozman's comments, I want to compliment 
Director Pavlou on his work. You have a good reputation with 
people around here, and I would also note for the record that 
we asked for representatives of the EPA from the Washington 
office who are in a position to answer those questions to come 
here today, and at this point they have declined to join us. 
But we are happy to have you here, sir. I wanted to ask a 
couple of questions if we could about some of the other sites 
that we haven't touched on that are in the 19th Congressional 
District. Starting with the Carroll and Dubies--I guess that's 
how it is pronounced--the Sewage Disposal site in Port Jervis. 
This is a site that is designated as construction complete, 
although it has not been deleted from the National Priority 
List. Tell us what the current status is.
    Mr. Pavlou. The contaminant source areas have been 
remediated, and the groundwater at this site is what we call 
natural attenuation, in other words, the levels of 
contamination are not that high as to require active treatment, 
but through a reasonable amount of time, we should be able to 
achieve, you know, acceptable levels.
    I would say that--and once we achieve the contaminant 
levels, you know, to the point where they meet groundwater 
standards, then we should be able to say that that remedy is 
effective and we should be able to proceed to delete that site 
from the National Priorities List. I would say that we do not 
anticipate at this point in time that we should be able to do 
so in the next five years.
    I would like to stress because, you know, before we were 
talking about the groundwater and how long it takes for it to 
get cleaned up, unfortunately, in the beginning of the program, 
our experience was that if we, you know, have contamination of 
the groundwater, we put an extraction, a pump and treat system, 
we should be able to clean up the groundwater over a 30-year 
period.
    Our experience so far indicates that we were very, very 
wrong. We were not even near, you know, in terms of how long it 
will take to, you know, treat groundwater and to achieve 
drinking water levels. I would say it wouldn't be unusual for 
it to take a hundred years to achieve drinking water levels. 
Once you contaminate the groundwater, it remains contaminated 
above drinking water standards for a long, long time.
    Mr. Hall of New York. So in other words, we shouldn't 
contaminate it if we can possibly help not doing so in the 
first place.
    Mr. Pavlou. We should prevent it, yes.
    Mr. Hall of New York. Let me just veer off from my previous 
line of questioning and just ask what is the proper legal 
method for disposing of TCE for an industrial operation.
    Mr. Pavlou. At this point in time, we have the Resource 
Conservation and Recovery Act, RCRA, as we know it, that if you 
do have TCE contamination, there are permitted facilities that 
should be taken to properly dispose of it. There are, you know, 
people who recycle TCE.
    Mr. Hall of New York. Do you have any idea what the costs 
are for----
    Mr. Pavlou. I do not know the costs, no.
    Mr. Hall of New York. Is it more costly than dumping----
    Mr. Pavlou. Oh, yes, far, far more.
    Mr. Hall of New York. So basically an industry that is 
making a profit and dumping TCE or any similar chemical on the 
ground is doing it to save money.
    Mr. Pavlou. Well, that or they----
    Mr. Hall of New York. Or they don't realize what they are 
doing.
    Mr. Pavlou. Yes, they are doing it recklessly I would say.
    Mr. Hall of New York. So that's the theory behind the tax 
on the polluters that was dropped in 1995_allowed to expire in 
1995_the theory that the polluter pays, is that they are making 
a profit in the first place and therefore they are the ones who 
should pay for the cleanup.
    Let me jump back to the Katonah Municipal Well. That site 
has been deleted----
    Mr. Pavlou. That has been deleted from the National 
Priorities List, yes.
    Mr. Hall of New York. So that one is gone.
    Mr. Pavlou. Yes.
    Mr. Hall of New York. The Nepera Chemical site in Orange 
County, once again, is not expected to be done within five 
years, is that correct?
    Mr. Pavlou. That one we selected a remedy for, you know, 
the remediation of the site back in September of 2007 on that 
one. The site is located in Hamptonberg, New York. The remedy 
that we selected for that site called for the treatment of the 
soils as well as the remediation of the groundwater as well, so 
we did select the remedy.
    We are in negotiations with, you know, the company that 
caused the contamination in Nepera to do the work as the 
decision of the EPA dictated. I would imagine once we complete 
the negotiations, it would take them about a year or so to 
design the remedy and then another few years to do the 
construction work.
    Mr. Hall of New York. Thank you. Is there any evidence of 
vapor intrusion either in Katonah or the Nepera site?
    MR. PAVLOU: I can provide the information to you later on, 
but all of the--I don't have it at hand right now but--there is 
none.
    Mr. Hall of New York. Okay, and Warwick Landfill?
    Mr. Pavlou. Warwick Landfill, I don't believe so either.
    Mr. Hall of New York. A couple of quick, you know, a couple 
of sentences, a status report on that.
    Mr. Pavlou. On that one, it is a landfill, as you know, and 
we selected the remedy and it is a 28-acre landfill and we 
capped the landfill, and we constructed a liner back in 
September of 1998 and we continued with the operation and 
monitoring of the program, and this is work performed by the 
potentially responsible parties. It is costing about $44,000 a 
year to maintain the cap that was placed on the landfill and we 
did deleted this site from the National Priorities List in July 
of 2001.
    Mr. Hall of New York. I wanted to ask Dr. Carlson, Director 
Carlson, do low amounts of these VOC's have a greater effect on 
infants or people with compromised immune systems?
    Mr. Carlson. Well, infants and people with compromised 
systems and the elderly are more sensitive to them, but our 
guidelines are developed, our guidelines and standards are all 
developed with those segments of the population in mind, so 
they are very carefully considered when we develop our numbers.
    Mr. Hall of New York. Who pays for the implementation of 
the PHA plan, and is there any federal posture?
    Mr. Carlson. Implementation of the PHA plan is part of the 
overall process of the cleanup program, and so we do some of 
the work with our cooperative agreement with ATSDR, some of the 
work is done as part of a remedy for the site, which is either 
then paid for by the EPA, DEC, or the responsible party. If it 
is a responsible party site, the responsible party is paying 
for it. If they are not available, and EPA or DEC is carrying 
out the remedy and they presumably will look for cost recovery 
if that is an option. According to the kind of numbers that Ms. 
Washington suggested earlier about our effectiveness in 
recovering the cost for carrying out these remedies is very 
good.
    Mr. Hall of New York. And with regard to the review of the 
existing outcomes for evaluating vapor intrusion impacts, are 
there any preliminary findings, could you speculate that those 
findings may be consistent with what we already know about the 
health impacts?
    Mr. Carlson. You are talking about what we anticipate 
coming out of the studies that we are doing now. No, I wouldn't 
endeavor to speculate because we don't have the data yet. The 
preliminary information that we gathered from questionnaires 
that we did send all the individuals that we asked to 
participate in our program did not indicate unusual numbers, so 
that's why we are looking at the data that are available in our 
registries and that address broader aspects of the health of 
the residents for our evaluation.
    Mr. Hall of New York. Thank you. And Deputy Commissioner 
Washington, I wanted to ask you, in your testimony, you 
referred to the incentive for polluters to stall the process of 
reaching a settlement. This is a problem that is created by the 
failure to reauthorize the Superfund program.
    Are you encountering this in response to New York's program 
as well? Would the Superfund reauthorization bolster New York's 
program?
    Ms. Washington. New York is a fairly robust program. We 
have had significant funding appropriated by the legislature 
for our state Superfund program, so we don't have the same 
need.
    Mr. Hall of New York. There seems to be strong state and 
federal cooperation on identified sites. Does this same spirit 
of cooperation extend to preventive monitoring and enforcement?
    Ms. Washington. I believe it does. I have to tell you that 
I haven't been that involved in the enforcement program but 
yes.
    Mr. Hall of New York. As far as you know.
    Ms. Washington. As far as I know, we have a very good 
relationship with the EPA.
    Mr. Hall of New York. I have always been proud that New 
York is leading on issues of environmental protection and the 
ongoing efforts to create parameters for vapor intrusion and 
TCE exposure. Is there any reason why these models would not be 
transferable to the federal level?
    Ms. Washington. I would say that they are transferable. I 
think we had this discussion with the EPA and EPA has been 
involved in the ongoing development of strategies.
    Mr. Hall of New York. So as the EPA figures out what the 
standard is--it should consider, among other things, the 
information that comes from New York State and other states.
    Mr. Carlson. It is important if you are talking about 
nationwide, that is one thing, but I think our experience in 
New York, and I believe it is similar in New Jersey, that 
basically in the Region 2 area we are carrying out programs 
that are consistent. We not only work cooperatively, but our 
approach is very, very similar and our outcomes are also 
similar.
    Mr. Pavlou. All decision matrixes that New York State DOH 
as well as DEC develop which are extensively, you know, 
discussed with EPA. The EPA shares their decision-making 
matrix, so we are consistent and we do have and enjoy excellent 
working relationships between the three agencies. Nothing gets 
done without the three of us agreeing on something. Otherwise 
we don't proceed.
    Mr. Hall of New York. I am glad you all get along so well.
    Mr. Pavlou. We do.
    Mr. Hall of New York. Ms. Washington, how are the 
investigatory and financial burdens between EPA and New York 
State shared on sites that eventually make it onto the NPL 
list?
    Ms. Washington. Normally they end up_[portion missing from 
transcript: Normally, New York pays a 10% share for 
construction, with EPA paying for investigation and design. 
Normally, the State takes over operation and maintenance costs. 
If New York takes the lead on remediation_which is pretty rare 
these days_then we pick up all costs and try to get them back 
from the PRPs.]
    Mr. Hall of New York. And lastly, I wanted to ask Director 
Pavlou a question. The big site that we have spoken of that 
runs through the 19th District, but which one doesn't think 
about a lot because it is so big and it is not the immediate 
impact that the Hopewell Precision has, for instance, is the 
Hudson River. It is a Superfund site and is in the process of 
being mediated. Can you tell us anything, are you involved in 
that or does that go north of your----
    Mr. Pavlou. I am very, very involved in that site.
    Mr. Hall of New York. Good.
    Mr. Pavlou. I am glad to say on the Hudson River we will be 
dredging in the next year in 2009. We were able to secure an 
agreement with General Electric back in September of 2005 for 
them to undertake the work in the first phase of the dredging 
of the river.
    As we speak, they are building what I would label as a 
chemical city to treat the sediments as they are dredging from 
the Hudson River. They are going to be taking all of these 
sediments to a 100-acre site on the banks of the Champlain 
Canal. They are going to be dewatering those sediments, and 
then they are going to be transporting those sediments to 
Texas, of all places, via rail.
    Mr. Hall of New York. Not to the Alamo.
    Mr. Pavlou. No, no. I forget the name of the county, but it 
is towards New Mexico, you know, that boundary, but the 
sediment dewatering facility will be ready and will be tested 
by the end of this calendar year.
    We were able to withstand legal challenges by the local 
municipality up there to the point where we wanted, you know--
the district court, it was appealed in a high court, and the 
appeal decision was made back in January of this year endorsing 
EPA's work as well, so without any further legal challenges, we 
should be able to proceed with the dredging.
    Mr. Hall of New York. This is what they call environmental 
dredging, it is a type of suction.
    Mr. Pavlou. Yes, it is.
    Mr. Hall of New York. It is a big mechanical----
    Mr. Pavlou. It is not mechanical dredging. It is going to 
be secure environmental dredging such that the clamps that they 
are going to be using are going to be airtight that it secures 
everything in there, such that there is suspension. It is going 
to be minimized, but we also developed what we call engineering 
performance standards such that if there were to be 
resuspension exceeding the drinking water standards in the 
river, it is our standard that they need to achieve we would 
essentially slow down the operations or go back and find out 
what is causing those violations.
    We developed, you know, quality of life standards for the 
communities up there such that whatever we do is not going to 
affect their way of life or their health in any way. So this is 
one of the, you know most studied rivers in the country, and I 
am glad to say that eventually we are proceeding to the point 
where dredging will begin and the implementation of the 
dredging will begin next year.
    Mr. Hall of New York. Thank you and all of the witnesses 
for being here and for the work that you are doing and look 
forward to continuing. The thought of a hundred years of 
cleanup is boggling my mind. But it makes this all the much 
more important whether we catch pollution as it happens, 
whether it is household hazardous waste, or whether it is 
industrial solvents that are in use in some process in some 
industry. We must make sure that they don't enter the 
groundwater to begin with so we don't have to go down this 
road. And thank you, Madam Chair.
    Ms. Johnson. Thank you very much, Mr. Hall, and let me 
thank Dr. Carlson and Ms. Washington and Mr. Pavlou for your 
testimony and the other witnesses as well. This completes our 
public hearing, and we do plan to follow up in six-months. 
Thank you.
    Mr. Boozman. Can I just say one thing again? I want to 
thank Mr. Hall for inviting us here. We are on the Veterans' 
Affairs Committee also and work together in that area in 
helping you guys out with our veterans in trying to make sure 
that we, you know, do the benefits that we promised you in the 
past and we appreciate your efficacy in that area also. Thank 
you very much.
    Ms. Johnson. Thank you, and that ends our public hearing.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 42186.013
    
    [GRAPHIC] [TIFF OMITTED] 42186.014
    
    [GRAPHIC] [TIFF OMITTED] 42186.015
    
    [GRAPHIC] [TIFF OMITTED] 42186.016
    
    [GRAPHIC] [TIFF OMITTED] 42186.017
    
    [GRAPHIC] [TIFF OMITTED] 42186.018
    
    [GRAPHIC] [TIFF OMITTED] 42186.019
    
    [GRAPHIC] [TIFF OMITTED] 42186.020
    
    [GRAPHIC] [TIFF OMITTED] 42186.021
    
    [GRAPHIC] [TIFF OMITTED] 42186.022
    
    [GRAPHIC] [TIFF OMITTED] 42186.023
    
    [GRAPHIC] [TIFF OMITTED] 42186.024
    
    [GRAPHIC] [TIFF OMITTED] 42186.025
    
    [GRAPHIC] [TIFF OMITTED] 42186.026
    
    [GRAPHIC] [TIFF OMITTED] 42186.027
    
    [GRAPHIC] [TIFF OMITTED] 42186.028
    
    [GRAPHIC] [TIFF OMITTED] 42186.029
    
    [GRAPHIC] [TIFF OMITTED] 42186.030
    
    [GRAPHIC] [TIFF OMITTED] 42186.031
    
    [GRAPHIC] [TIFF OMITTED] 42186.032
    
    [GRAPHIC] [TIFF OMITTED] 42186.033
    
    [GRAPHIC] [TIFF OMITTED] 42186.034
    
    [GRAPHIC] [TIFF OMITTED] 42186.035
    
    [GRAPHIC] [TIFF OMITTED] 42186.036
    
    [GRAPHIC] [TIFF OMITTED] 42186.037
    
    [GRAPHIC] [TIFF OMITTED] 42186.038
    
    [GRAPHIC] [TIFF OMITTED] 42186.039
    
    [GRAPHIC] [TIFF OMITTED] 42186.040
    
    [GRAPHIC] [TIFF OMITTED] 42186.041
    
    [GRAPHIC] [TIFF OMITTED] 42186.042
    
    [GRAPHIC] [TIFF OMITTED] 42186.043
    
    [GRAPHIC] [TIFF OMITTED] 42186.044
    
    [GRAPHIC] [TIFF OMITTED] 42186.045
    
    [GRAPHIC] [TIFF OMITTED] 42186.046
    
    [GRAPHIC] [TIFF OMITTED] 42186.047
    
    [GRAPHIC] [TIFF OMITTED] 42186.048
    
                                    

</pre></body></html>
